     Department of Homeland Security

     ��������������������������



      FEMA's Initial Response to the Oklahoma 

          Severe Storms and Tornadoes 





OIG-14-50-D                               March 2014

                         O.l<l<lCE OF INSPECTOR GENERAL
                             Depmimtmt oC Homeland Security
                              ~..a~llingcon.   DC' 2052S :' www.olg...Jh~.gov



                                       MAR 1 9 2014
MEMORANDUM fOR:              Joseph L. Nimmich
                             Associate Administrator, Response and Recovery
                             FederaH~ncy Management Agency


FROM:
                             Assi$tan~'~Jpet
                             Office of mergency Management Oversight

SUBJECT:                     FEMA's Initial Response to the Oklahoma Severe Storms
                             and Tornadoes
                             FEMA Disaster Number 4117-DR-OK
                             Audit Report Number OIG-14-50-D

Attached for your information is our final letter report, FEMA's Initial Response to the
Oklahoma Severe Storms and Tornadoes. We audited the Federal Emergency
Management Agency's (FEMA) initial response to the severe storms and tornadoes that
occurred in Oklahoma from late May to early June 2013. We discussed the results of this
audit with FEMA officials and provided a draft report to them on November 20, 2013.
The report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Moises Dugan,
Supervisory Program Analyst; Patricia Epperly, Auditor-In-Charge; David Fox, Auditor;
and Heather Hubbard, Auditor.

Please call me with any questions, or your staff may contact Christopher Dodd, Acting
Director, Central Regional Office, Office of Emergency Management Oversight, at
(214) 436-5200.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Background
The State of Oklahoma (State) lies within an area of the Great Plains known as Tornado
Alley, a region that stretches from South Dakota to central Texas. The State experiences
more tornadoes than any other state, and its capital, Oklahoma City, endures more
tornadoes than any other city in the United States. Since May 2003, the President has
declared 17 Federal disasters in Oklahoma related to tornadoes. Figure 1 demonstrates
the history of tornado activity in the Oklahoma City area.

                  Figure 1: Tornadoes in the Oklahoma City Area 1880–2011




       Source: National Weather Channel. Map depicts the number of tornadoes in the Oklahoma City area.



The Oklahoma Department of Emergency Management serves as the State’s liaison with
Federal and local emergency management agencies and maintains the State Emergency
Operations Center located in Oklahoma City, Oklahoma. The State is within FEMA
Region VI, located in Denton, Texas.




www.oig.dhs.gov                                           2                                               OIG-14-50-D
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


On the afternoon of May 20, 2013, a category EF-5 tornado touched down in Moore,
Oklahoma.1 The tornado remained on the ground for over 40 minutes—its path more
than a mile wide and 17 miles long. The tornado claimed 26 lives, including 7 children;
injured more than 387 others; and destroyed 2 elementary schools.

               Figure 2: Tornado Damage in Moore, Oklahoma, May 29, 2013




        Source: OIG Emergency Management Oversight Team photograph. Moore, Oklahoma, May 29, 2013.



Within hours of the event, the Governor of Oklahoma declared a State of Emergency
and, as the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, as
amended, requires, requested a Presidential disaster declaration. FEMA Region VI
processed the Governor’s request for a major disaster declaration by telephone, which
resulted in a major disaster declaration (4117-DR-OK) within 24 hours of the incident.
Typically, an average of 39 days passes between the date of the incident and the date of
the declaration.2 The incident period for this disaster began on May 18, 2013, to include
a category EF-4 tornado that hit Steelman Estates Mobile Home Park in Shawnee, just
35 miles east of Oklahoma City, and continued through June 2, 2013, to include a

1
  Based on the Enhanced Fujita (EF) scale, an EF-5 tornado is the most severe with winds in excess of 200 

miles per hour. 

2
  Normally, damage assessments, conducted jointly by FEMA and the State, precede a State’s request for a 

major disaster declaration. 

www.oig.dhs.gov                                         3                                            OIG-14-50-D
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


second category EF-5 tornado that struck near the City of El Reno on May 31, 2013. In a
period of 15 days, tornadoes and storms in the Oklahoma City area caused 48 fatalities
and more than 508 reported injuries.

On May 28, 2013, our office deployed an Emergency Management Oversight Team
(EMOT) to the Joint Field Office in Oklahoma City, Oklahoma.3 The EMOT provides
independent oversight of disaster response and recovery activities and provides FEMA
an additional resource for proactive evaluation to prevent and detect systemic problems
in disaster programs and helps ensure accountability over Federal funds.

               Figure 3: Tornado Damage in Shawnee, Oklahoma, May 30, 2013




         Source: OIG Emergency Management Oversight Team photograph. Steelman Estates, Shawnee, Oklahoma, May 30, 2013




3
 FEMA establishes a Joint Field Office in or near the disaster area. Federal and State staff uses this office
as the focal point of disaster recovery operations.
www.oig.dhs.gov                                           4                                            OIG-14-50-D
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Results of Audit
FEMA’s initial response to the Oklahoma severe storms and tornadoes was effective.
FEMA demonstrated its ability to fulfill its mission to serve and assist disaster survivors
effectively by aggressively responding to the disaster both before and after the
Presidential declaration, meeting recovery challenges, creatively overcoming resource
shortfalls, implementing a variety of disaster sourcing methods, and effectively
coordinating activities with the State.

In approximately 1 month from the disaster declaration, FEMA:

    •	 processed 12,461 Individual Assistance registrations,
    •	 completed 96 percent of home inspections,
    •	 disbursed $9,437,387 in individual household assistance,
    •	 completed 36 Public Assistance Kickoff meetings and approved 48 requests for
       Public Assistance grant funds, 4
    •	 issued 34 Mission Assignments (31 Federal Operations Support and 3 Direct
       Federal Assistance) totaling more than $2 million, and
    •	 awarded $1 million in disaster response contracts, including $818,473 to local
       businesses.

In evaluating FEMA’s initial response to this disaster, we focused on answering the
following questions:

    1.	   What activities did FEMA perform before the major disaster declaration?
    2.	   What were the most pressing challenges FEMA faced in this disaster?
    3.	   What were the most significant resource shortfalls?
    4.	   How did FEMA make disaster-sourcing decisions?
    5.	   How well did FEMA coordinate its activities?

FEMA’s Activities Before the Disaster Declaration

FEMA officials effectively responded to the disaster before the Presidential declaration.
Beginning immediately after the incident, FEMA Region VI activated an Incident
Management Assistance Team, three Urban Search and Rescue Teams, two Disaster
Medical Assistance Teams, two Disaster Mortuary Operational Response Teams, and the
National FEMA Incident Management Assistance Team. Although FEMA Region VI

4
 FEMA’s Public Assistance grants are available to supplement State, Tribal, and local governments and
certain types of private nonprofit organizations to cope effectively with the direct results of the disaster.
www.oig.dhs.gov                                       5	                                        OIG-14-50-D
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


activated these disaster response teams and mobilized resources before the
declaration, the short time between the incident and the declaration prevented some
elements of FEMA’s Incident Management Assistance Team from deploying until after
the declaration.

FEMA Region VI officials expedited the declaration process by accepting the Governor’s
request by telephone rather than in writing. This expedited process resulted in a major
disaster declaration within 24 hours of the incident, as opposed to the nationwide
average of 39 days.5 This process made Federal resources available faster to the citizens
of Oklahoma.

FEMA Region VI also activated the Regional Response Coordination Center in Denton,
Texas before the Presidential disaster declaration. The center acts as the focal point of
FEMA’s response until FEMA’s incident management team takes operational control of
the disaster at the Joint Field Office. During this event, FEMA Region VI implemented,
for the first time, concepts of FEMA’s recently published RegionalfIncidentfSupportf
Manual. However, this caused some confusion because FEMA Region VI had not
completed its training on the manual’s concepts before the disaster.6 The manual
implements changes to the organizational structure of FEMA’s Regional Response
Coordination Center to enhance FEMA’s ability to support its incident management
teams. Illustrating the enhanced support role, the new organizational structure
centralizes resource ordering into one section (Resources Support), unlike the Joint Field
Office structure where resource ordering remains split among three sections
(Operations, Logistics, and Administrative/Finance).7 However, because of FEMA’s quick
response to the tornadoes, FEMA transitioned operational control of the event from the
Regional Response Coordination Center to the Joint Field Office quickly. Therefore,
implementing this new concept did not significantly impact FEMA’s response. FEMA
officials said they expect problems with implementing the RegionalfIncidentfSupportf
Manualfconcepts to diminish once FEMA completes its training.




5
  Normally, damage assessments that FEMA and the State conduct jointly precede a State’s request for a 

major disaster declaration. 

6
  FEMA issued the RegionalfIncidentfSupportfManual on January 24, 2013.

7
  The Joint Field Office follows an Incident Command System organizational structure. The Incident 

Command System is a standardized, on-scene, all-hazards management approach that integrates facilities, 

equipment, personnel, procedures, and communications within a common organization structure and 

enables a coordinated response and common processes for planning and managing resources.

www.oig.dhs.gov                                    6                                      OIG-14-50-D
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


FEMA’s Most Pressing Challenges

FEMA effectively resolved pressing challenges by facilitating a rapid and safe response
to the disaster. For example, FEMA implemented programs to assist survivors through
its Disaster Survivor Assistance initiative, expedited debris removal through a pilot
program, and reassigned staff deployed to the Joint Field Office to the most appropriate
positions based on skills and experience.

FEMA Region VI met the challenge of assisting disaster survivors by implementing its
Disaster Survivor Assistance initiative.8 This initiative supports the needs of survivors by
having FEMA Disaster Survivor Assistance teams establish ad-hoc registration sites to
provide virtual disaster assistance functions in tandem with fixed Disaster Recovery
Centers.9 This approach allowed FEMA to provide important disaster assistance services
to residents who could not leave their homes or who had transportation limitations. The
Disaster Survivor Assistance teams enhanced operational and programmatic
coordination by combining situational awareness efforts with program services in the
critical first hours, days, and weeks following the disaster.

To expedite debris removal, FEMA Region VI offered subgrantees the opportunity to
participate in the Public Assistance Alternative Procedures Pilot Program for Debris
Removal. This program encourages subgrantees to expedite removal of eligible debris
by providing an increased Federal cost share of up to 85 percent for debris removed
within the first 30 days.10 Participation in this program also allows the subgrantee to
retain any debris recycling revenues and receive reimbursement for its employees’
regular wages instead of only overtime wages.11

Finally, to ensure the best qualified staff filled each position at the Joint Field Office,
FEMA officials reassigned personnel based on the individual’s skills and experience,
rather than release the staff and wait for replacements to deploy. FEMA’s reliance on
the FEMA Qualification System to obtain enough appropriately skilled staff continues to
be an ongoing and pressing challenge. We have identified staffing as a major challenge
in all four disasters we have reviewed, including this one.12 Therefore, because the

8
  This disaster was only the second time FEMA Region VI implemented Disaster Survivor Assistance. The
first time followed the West, Texas, explosion that occurred on April 17, 2013 (EM-3363-TX).
9
  A Disaster Recovery Center is a readily accessible facility or mobile office where applicants may go for
information about FEMA or other disaster assistance programs, such as housing or rental assistance.
10
   The Federal cost share established for this disaster declaration is 75 percent.
11
   FEMA Policy 9525.7, Labor Costs – Emergency Work, allows only overtime labor eligibility for debris
removal and emergency protective measures.
12
   Audit Report Number OIG-13-84, FEMA’sfInitialfResponseftofHurricanefIsaacfinfLouisianafWasfEffectivef
andfEfficient, April 30, 2013; Audit Report Number OIG-13-117, FEMA’sfInitialfResponsefinfNewfJerseyftof
www.oig.dhs.gov                                      7                                        OIG-14-50-D
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


problem appears to be systemic, rather than specific to a single disaster, we will issue a
separate report to address the challenges FEMA responders have had with FEMA’s
Qualification System.

Resource Shortfalls

FEMA creatively overcame State and FEMA resource staffing shortfalls, as well as
shortfalls in local mitigation plans. For example, the State had a shortage of personnel
and resources to address its initial management activities for donated goods. In
response, FEMA provided staff to collect, sort, and store donated goods until State staff
was able to assume responsibilities.

In addition, FEMA Region VI addressed State and local jurisdictions mitigation planning
shortfalls by presenting the State with several options to accelerate the review and
approval of local mitigation plans and updates.13 As a result, FEMA expedited funding of
mitigation projects. It is important that FEMA, the State, and grant applicants address
mitigation planning shortfalls to ensure disaster survivors and communities statewide
have access to FEMA’s hazard mitigation funds. We will also address this hazard
mitigation planning shortfall in a separate report.

FEMA’s Disaster Sourcing Decisions

FEMA provided goods and services necessary for the response and recovery through a
variety of disaster sourcing mechanisms. FEMA tasked other Federal agencies to support
FEMA and State efforts using Mission Assignments (as explained in the next section);
used its Logistics Section to requisition supplies, equipment and services, such as water
and blankets; and used its Administrative and Finance Section to outsource other
services, such as providing security guards to FEMA offices and distribution centers
using local contractors.

As discussed previously, FEMA operated its Regional Response Coordination Center
based on the new RegionalfIncidentfSupportfManual concept. Under this concept, the
Resources Support Section makes all resource ordering decisions. FEMA’s Regional
Response Coordination Center maintained control over disaster sourcing decisions until
the Joint Field Office incident management team took over this activity in Oklahoma
City.

HurricanefSandy, September 6, 2013; and Audit Report Number OIG-13-124, FEMA’sfInitialfResponsefinf

NewfYorkftofHurricanefSandy, September 26, 2013.

13
   FEMA requires an approved local hazard mitigation plan to receive FEMA hazard mitigation grant funds 

for a project such as safe rooms. 

www.oig.dhs.gov                                    8                                        OIG-14-50-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


However, at the Joint Field Office, FEMA made resource-ordering decisions using its
traditional linear, stove-piped, approach, involving three different sections within the
Joint Field Office’s organizational structure—the Operations Section, the Logistics
Section, and the Administrative/Finance Section. Under this traditional approach,
FEMA’s Operations Section receives and tracks all resource requests. FEMA used action
request forms to document Federal and State requirements for commodities,
equipment, teams, and services. FEMA can address Federal and State requirements in
four ways:

   •	   Mission Assignments,
   •	   Internal requisitions,
   •	   Local contracts or interagency agreements, or
   •	   Public Assistance program referral

Operations Section Tasked Other Federal Agencies Using Mission Assignments

As of June 21, 2013, FEMA’s Operations Section obligated more than $2 million in
Mission Assignments to Federal agencies to support the disaster recovery efforts of
FEMA and the State. These Mission Assignments provided resources such as emergency
medical personnel, air quality monitoring services, and donations management support
services. FEMA used the following two types of Mission Assignments during this
disaster.

   1.	 Federal Operations Support: Federal-to-Federal request allowing FEMA to
       execute its mission without requesting a cost share from the State. For example,
       FEMA tasked several Federal agencies to provide agency representatives to
       support FEMA’s response and disaster planning efforts at the National and
       Regional Response Coordination Centers. FEMA also tasked the Corporation for
       National and Community Services to provide warehouse management support
       for a FEMA warehouse.
   2.	 Direct Federal Assistance: Federal-to-Federal request FEMA makes to other
       Federal Agencies to directly provide goods and services not available through the
       State. FEMA and the State share the cost of this type of mission assignment. For
       example, at the State’s request, FEMA tasked the Environmental Protection
       Agency to perform air monitoring in areas where debris removal operations and
       other recovery efforts were underway.




www.oig.dhs.gov                             9	                                OIG-14-50-D
                            OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Logistics Section Requisitioned Supplies, Equipment, and Services

FEMA’s Logistics Section processed requests for supplies, equipment, and services that
FEMA’s Operations Section had not addressed. If the Logistics Section could not fill the
request, Logistics personnel forwarded it to the Administrative and Finance Section for
sourcing consideration using either a contract or interagency agreement.

Administrative and Finance Section Outsourced Services Using Local Contracting

During this disaster, FEMA’s Administrative and Finance Section used local contracting
before using any advanced contracts. As of June 4, 2013, the Administrative and Finance
Section awarded eight local contracts totaling $818,473.

Public Assistance Program Referral

FEMA can return requests to the State and recommend that the State address the
matter with its own resources, or through the Emergency Management Assistance
Compact; and request Federal reimbursement for the activity under FEMA’s Public
Assistance program.14

FEMA’s Coordination with State and Local Officials

FEMA effectively coordinated its efforts in this disaster. Effective disaster response and
recovery relies on a strong partnership between the impacted community, the State,
and FEMA. According to the Federal Coordinating Officer, FEMA addressed all requests
in a timely manner, processed all Mission Assignments quickly, and began Preliminary
Disaster Assessments the same day requested. FEMA coordinated its response and
recovery activities and moved quickly to address State and applicant deficiencies and
shortfalls.

During our deployment to this disaster, we observed instances where FEMA personnel
provided incomplete and, at times, inaccurate information to Public Assistance
applicants regarding Federal procurement standards. Based on our previous audit
reports and personal observations, similar instances have been occurring for several
years. Therefore, we are issuing a separate report on this problem.




14
 The Emergency Management Assistance Compact is the nation’s state-to-state mutual aid system
offering assistance during governor-declared states of emergency.
www.oig.dhs.gov                                 10                                     OIG-14-50-D
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



Conclusion
State officials were satisfied with FEMA’s response to this disaster. FEMA remained
focused on its mission to provide effective emergency response and disaster assistance
to Oklahoma communities and residents. We plan to issue separate reports addressing
issues with (1) FEMA’s Qualification System and its deployment policies, (2) hazard
mitigation planning that delayed funding of mitigation measures, and (3) procurement
guidance that FEMA personnel provide early in disasters.


Recommendations
We are not making any recommendations.


Management Comments and OIG Analysis
FEMA concurred with the report and its conclusion.




www.oig.dhs.gov                           11                                OIG-14-50-D
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security Office of Inspector General was established by
the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment to the Inspectorf
GeneralfActfoff1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the Department.

The objective of this audit was to determine whether FEMA’s response to Oklahoma’s
severe storms and tornadoes was effective and to evaluate FEMA’s actions, resources,
and authorities according to Federal regulations and FEMA guidelines in effect at the
time of our fieldwork. To accomplish our objective, we focused on answering the
following questions:

   1.	   What activities did FEMA perform before the major disaster declaration?
   2.	   What were the most pressing challenges FEMA faced in this disaster?
   3.	   What were the most significant resource shortfalls?
   4.	   How did FEMA make disaster-sourcing decisions?
   5.	   How well did FEMA coordinate its activities?

We conducted this performance audit between May 2013 and November 2013,
pursuant to the InspectorfGeneralfActfoff1978, as amended, and according to generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based upon our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions
based upon our audit objectives.

We performed the following procedures to evaluate FEMA’s initial response to this
disaster (4117-DR-OK):

   •	 Deployed staff to the Joint Field Office within a week of the declaration.
   •	 Interviewed officials with FEMA Region VI and the Oklahoma Office of 

      Emergency Management at the Joint Field Office. 

   •	 Reviewed all disaster-specific initiatives, plans, and reports.
   •	 Attended Joint Field Office briefings and task force meetings.
   •	 Observed daily operations at the Joint Field Office.
   •	 Distributed EMOT brochures to FEMA and State officials.

www.oig.dhs.gov                            12	                                OIG-14-50-D
                        OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


   •	 Tracked local and national media reports on the disaster and on FEMA’s 

      response to the disaster. 

   •	 Visited a Disaster Recovery Center at Westmoore High School in southern
      Oklahoma City.
   •	 Accompanied FEMA and U.S. Army Corps of Engineers officials conducting debris
      estimates and preliminary damage assessments in Moore, Oklahoma.
   •	 Met with the Oklahoma State Auditor and Inspector at the State Capitol in
      Oklahoma City.
   •	 Attended FEMA Kickoff meetings with the cities of Shawnee, Moore, and
      Norman; the counties of Cleveland and Pottawatomie; and the public school
      districts of Moore and Oklahoma City. At these meetings, we—
          o	 instructed applicants to review and comply with the FEMA Public
              Assistance Applicant Handbook and Public Assistance Guidelines,
          o	 stressed mandatory compliance with the Code of Federal Regulations for
              Federal procurement and contract requirements in 44 CFR 13.36 and
              2 CFR 215,
          o	 discussed common audit findings that jeopardize Federal funds, and
          o	 distributed copies of our fiscal year 2012 capping report of public
              assistance and hazard mitigation audits and our audit tips handout.
   •	 Made a presentation at the Public Assistance Inspectors Briefing.
   •	 Met with FEMA Office of Chief Counsel staff to discuss contracts and 

      procurement requirements identified in 44 CFR 13.36 and 2 CFR 215.


We also performed other procedures considered necessary to accomplish our objective.
We did not assess the adequacy of FEMA’s internal controls applicable to disaster
response because it was not necessary to accomplish our audit objective.




www.oig.dhs.gov                          13	                             OIG-14-50-D
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix B
Report Distribution
Department of Homeland Security
Secretary
Chief of Staff
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief Counsel
Chief of Staff
Chief Financial Officer
Deputy Associate Administrator, Response and Recovery
Director, Risk Management and Compliance
Federal Coordinating Officer, FEMA Disaster Number 4117-DR-OK
Regional Administrator, FEMA Region VI
Audit Liaison, FEMA (Job Code 13-152-EMO)
Audit Liaison, FEMA Region VI

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform

State
Director, State of Oklahoma Emergency Management
Oklahoma Office of State Auditor and Inspector
www.oig.dhs.gov                           14                               OIG-14-50-D
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
